HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in the State of Hawaii,"(A-04-03-06013)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in the State of Hawaii," (A-04-03-06013)
July 28, 2003
Complete
Text of Report is available in PDF format (110 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the State of Hawaii had established adequate accountability and
internal controls over the Medicaid drug rebate program.  The report points out that the State had not provided effective
control over and accountability for drug rebate collections.  Recommendations were made that the State more closely
monitor subcontractor activities, accurately report drug rebate activities to the Centers for Medicare and Medicaid Services,
and ensure interest on rebates is collected as appropriate.  The State concurred with the findings and recommendations.